         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Follow-up on Audit of
       Undistributed Site Costs Finds
       Corrective Actions Not Complete
       Report No. 08-P-0236

       August 25, 2008
Report Contributors:             Paul Curtis
                                 Meg Bastin
                                 Arthur Budelier
                                 Wendy Swan




Abbreviations

CFO          Chief Financial Officer
EPA          U.S. Environmental Protection Agency
MATS         Management Audit Tracking System
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
OSWER        Office of Solid Waste and Emergency Response
RMDS         Resources Management Directive System
                       U.S. Environmental Protection Agency                                                 08-P-0236
                                                                                                       August 25, 2008
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment


Why We Did This Review            Follow-up on Audit of Undistributed Site Costs
We sought to determine            Finds Corrective Actions Not Complete
(1) the status of corrective
actions taken in response to an    What We Found
Office of Inspector General
report, EPA Could Improve Its     EPA initiated some corrective actions in response to our prior report on
Redistribution of Superfund
Payments to Specific Sites,       undistributed site costs, but did not complete them. Also, EPA did not maintain
issued in July 2006; and          accurate information in the Management Audit Tracking System.
(2) whether the Action
Official sufficiently             Management control weaknesses contributed to a breakdown in the audit follow-
documented and certified the      up process. EPA did not document formal work assignments for audit follow-up
corrective actions.               and maintain accountability. EPA did not consistently monitor audit follow-up
                                  activities, communicate follow-up status among program offices and obtain
Background                        follow-up agreements, and document work completion. The policies and
                                  procedures in EPA Manual 2750 are the design framework for EPA’s internal
Audit follow-up is essential to   controls over the audit follow-up process. Since EPA did not complete the
good management and               corrective actions, its financial management and environmental protection efforts
improving the efficiency and      could be impacted. Superfund costs not redistributed appropriately from a general
effectiveness of U.S.
                                  site identifier to specific sites may not be considered in settlement negotiations
Environmental Protection
                                  and oversight billings. Consequently, these funds may not be recovered from
Agency (EPA) programs and
operations. EPA has audit         responsible parties and be available for future site clean-up activities.
follow-up procedures and
designated officials who          Because EPA did not complete the corrective actions, we could not fully address
manage this process. EPA          our second audit follow-up objective, which was to determine whether the Action
Manual 2750 requires EPA to       Official sufficiently documented the corrective actions and certified them, as
form a corrective action plan     required by EPA Manual 2750.
and complete the actions by
the agreed upon milestone          What We Recommend
dates. In our prior report, we
noted that EPA did not timely     We recommend that EPA make formal work assignments, document the
redistribute Superfund            assignments, and hold assignees accountable. EPA also needs to monitor audit
payments from a general site      follow-up activity, communicate among program offices, document work
identifier to specific sites.     progress, and elevate future disagreements for resolution. Further, we recommend
                                  that EPA resolve an interagency agreement redistribution problem and redistribute
                                  interagency agreement costs of $4.9 million, including $1.8 million in additional
For further information,
contact our Office of             costs recorded after May 12, 2006, and redistribute $2.8 million cooperative
Congressional and Public          agreement costs to the correct general and site specific identifiers. In response to
Liaison at (202) 566-2391.        the draft report, EPA agreed with all our recommendations and its proposed
                                  corrective actions should address our recommendations.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/
20080825-08-P-0236.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         August 25, 2008

MEMORANDUM

SUBJECT:               Follow-up on Audit of Undistributed Site Costs
                       Finds Corrective Actions Not Complete
                       Report No. 08-P-0236


FROM:                  Paul Curtis
                       Director, Financial Statement Audits

TO:                    Lyons Gray
                       Chief Financial Officer

                       Susan Parker Bodine
                       Assistant Administrator for Solid Waste and Emergency Response

                       Luis A. Luna
                       Assistant Administrator for Administration and Resources Management


This is our report on the follow-up audit to our July 2006 report, EPA Could Improve Its
Redistribution of Superfund Payments to Specific Sites, conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). This report contains
findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determinations on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $107,088.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. Please e-mail an electronic version of your response that
complies with Section 508 of the Rehabilitation Act to Meg Bastin at bastin.margaret@epa.gov.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.
If you or your staff have any questions, please contact me at (202) 566-2523 or
curtis.paul@epa.gov, or Meg Bastin at (513) 487-2366 or bastin.margaret@epa.gov.
Follow-up on Audit of Undistributed Site Costs                                                                                   08-P-0236
Finds Corrective Actions Not Complete


                                         Table of Contents
Purpose.................................................................................................................................     1

Background ..........................................................................................................................        1

           Audit Follow-up ..........................................................................................................        1
           Summary of July 2006 Audit Report ..........................................................................                      2
           Responsible Offices ...................................................................................................           3

Noteworthy Achievements..................................................................................................                    3

Scope and Methodology .....................................................................................................                  3

Results of Follow-up Audit .................................................................................................                 4

           Corrective Actions Not Completed .............................................................................                    4
           Incorrect Information in MATS ...................................................................................                 6
           Costs Redistributed to Incorrect Site Identifier ...........................................................                      6

Conclusion ...........................................................................................................................       6

Recommendations...............................................................................................................               7

Agency Response and OIG Evaluation..............................................................................                             7

Status of Recommendations and Potential Monetary Benefits.......................................                                             9



Appendices
     A       Audit Management Responsibilities....................................................................                         10

     B       Status of Corrective Actions ................................................................................                 11

     C       Details on Scope and Methodology.....................................................................                         13

     D       EPA Response to Draft Report ............................................................................                     14

     E       Distribution ............................................................................................................     24
                                                                                       08-P-0236


Purpose
The purpose of this review was to evaluate the status of corrective actions taken by the U.S.
Environmental Protection Agency (EPA) in response to the Office of Inspector General (OIG)
report, EPA Could Improve Its Redistribution of Superfund Payments to Specific Sites, issued
July 31, 2006. Our objectives were to determine whether:

       •   The Agency took adequate corrective action.

       •   The Action Official sufficiently documented the corrective actions and certified them
           as required by EPA Manual 2750.

Background
       Audit Follow-up

       The Inspector General Act of 1978 established OIGs in Federal agencies to conduct
       independent audits and investigations of agency programs and operations, and make
       recommendations to improve their efficiency and effectiveness. Amendments to the Act
       in 1988 directed agencies to report to Congress semiannually on the status of follow-up
       on OIG audit report recommendations.

       Office of Management and Budget (OMB) Circular A-50 specifies certain timeframes for
       audit resolution and requires agencies to develop systems to ensure prompt
       implementation of audit recommendations. According to OMB Circular A-50, audit
       follow-up is essential to good management and is a shared responsibility of agency
       managers and audit organizations.

       EPA’s policy and procedures on the audit follow-up process are in EPA Manual 2750,
       most recently revised in 1998. EPA Manual 2750 implements OMB Circular A-50 and
       the Inspector General Act Amendments of 1988. The Manual specifies a chain of
       responsibility for the audit management process, starting with the Chief Financial Officer
       (CFO) as the Agency’s designated Audit Follow-up Official. According to EPA Manual
       2750, the Agency’s Audit Follow-up Official has “personal responsibility” for Agency-
       wide audit resolution. The Action Official certifies that corrective actions are complete.
       Appendix A provides more details on audit management responsibilities.

       OIG reports usually contain recommendations for Agency Action Officials to take
       corrective actions to address the findings and conclusions of the report. When the
       Agency and the OIG agree on the corrective actions, this decision is documented in the
       Management Decision letter. EPA Manual 2750 requires actions to be completed within
       365 days of the management decision, or otherwise explain reasons for delay.

       The Office of the Chief Financial Officer (OCFO), with the CFO as the Agency Audit
       Follow-up Official, maintains and operates the Management Audit Tracking System
       (MATS) to track audit follow-up, report, and resolution dates, and corrective actions


                                               1
                                                                                   08-P-0236


Agency-wide. However, OCFO only requires limited information to be entered into
MATS, including milestone dates, financial information (if applicable), and explanations
for missed deadlines. Further details on the status and actions taken to implement
corrective actions must be documented by the Action Official’s office. This information
is essential for the Agency to assess and certify that agreed-to actions are completed.

According to EPA Manual 2750, official files are required to include seven major
elements:

       •   Names of Action Official and other parties responsible for implementing,
           tracking, following up, and reporting on corrective actions
       •   Draft reports
       •   Responses to draft reports
       •   Final reports
       •   Approved Management Decisions
       •   OIG Management Decision acceptance memoranda
       •   All pertinent documentation and certification information

Together, MATS and official files document an audit’s history, as well as the actions
taken by the Agency to address recommendations and correct deficiencies.

Managers are responsible for good internal control, according to Standards for Internal
Control in the Federal Government, issued November 1999 by the U.S. Government
Accountability Office. Management should design internal controls to ensure that
ongoing monitoring occurs. Monitoring of internal controls should include policies and
procedures to ensure that management promptly resolves findings of audits and other
reviews. Managers are to (1) promptly evaluate findings from audits and other reviews,
including those showing deficiencies and recommendations reported by auditors;
(2) determine proper actions in response to findings and recommendations from audits
and reviews; and (3) complete, within established time frames, all corrective actions or
otherwise resolve the matters brought to management's attention.

Summary of July 2006 Audit Report

In our July 2006 report, we noted that EPA did not make timely redistribution of
payments on Superfund cooperative agreements, interagency agreements, and small
purchases from the general site identifier “WQ” to the specific Superfund sites or other
general site identifiers. As of May 12, 2006, $13 million was recorded in “WQ” for those
funding vehicles. Superfund costs not redistributed appropriately to specific sites may
not be considered in settlement negotiations and oversight billings. Consequently, these
funds may not be recovered from responsible parties and be available for future site
clean-up activities.

EPA accounts for response costs at a site-specific level to enable cost recovery. EPA
obligates costs not readily identifiable to a site to the general site identifier “WQ,” and
upon payment redistributes the costs to specific sites. Additional general identifiers are


                                          2
                                                                                           08-P-0236


       “ZZ” for preliminary site assessment costs on sites that have not been assigned an
       identifier number and “00” for indirect costs not related to a specific site that will be
       allocated to the Superfund indirect cost rate.

       We found various reasons why EPA did not timely redistribute the “WQ” costs. EPA did
       not establish “WQ” procedures, consistently monitor the “WQ” accounts, and provide
       “WQ” training. EPA also did not require cooperative agreement recipients to provide the
       site-specific cost detail needed, include a review of undistributed “WQ” costs in the
       cooperative agreement closeout process, and hold project officers accountable for their
       “WQ” responsibilities.

       We recommended that EPA (1) develop written “WQ” procedures, including timeliness
       standards and monitoring procedures; (2) provide training; (3) redistribute the remaining
       historical “WQ” costs; (4) change cooperative agreement conditions to require recipients
       to provide cost details within 24 hours of drawing down funds; (5) amend the closeout
       process for cooperative agreements to include “WQ” procedures; and (6) promote
       accountability for “WQ” redistributions among project officers and finance office
       personnel. Appendix B provides EPA’s corrective action plan, agreed-upon milestone
       dates, and status of corrective actions.

       Responsible Offices

       Three EPA offices have primary responsibility for the areas covered in the subject report
       and the related audit follow-up. OCFO is responsible for EPA’s financial management
       and Superfund cost recovery system. The Office of Solid Waste and Emergency
       Response (OSWER) manages the Superfund program. The Office of Administration and
       Resources Management (OARM) is responsible for administration of grants and
       cooperative agreements.

Noteworthy Achievements
EPA personnel at EPA finance centers in Las Vegas, Nevada, and Research Triangle Park, North
Carolina, implemented procedures that significantly decreased the undistributed “WQ” costs for
cooperative agreements and small purchases. See Table 1 later in this report for the
undistributed “WQ” costs by funding vehicles and the resulting decreases and increases.

Scope and Methodology
We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. We conducted our audit from January 16, 2008,
through February 25, 2008. Appendix C contains a more extensive discussion on our scope and
methodology.



                                                 3
                                                                                                      08-P-0236


Results of Follow-up Audit
EPA initiated some corrective actions to develop written procedures, provide training, and
redistribute the historical “WQ” costs, but did not complete them and did not maintain accurate
information in MATS. Also, EPA distributed some costs to an incorrect site identifier. The
policies and procedures in EPA Manual 2750 are the design framework for EPA’s internal
controls over the audit follow-up process. However, management control weaknesses
contributed to a breakdown in the audit follow-up process:

    •   EPA did not document formal work assignments for audit follow-up and maintain
        accountability.

    •   EPA did not consistently monitor audit follow-up activities, communicate follow-up status
        among program offices and obtain follow-up agreements, and document work completion.

    •   Personnel within OCFO and OSWER did not resolve a disagreement affecting
        interagency agreement redistributions and delayed the corrective action.

Because EPA did not complete the corrective actions, its financial management and
environmental protection efforts were impacted. Superfund costs not redistributed appropriately
to specific sites may not be considered in settlement negotiations and oversight billings.
Consequently, these funds may not be recovered from responsible parties and be available for
future site clean-up activities.

Because EPA did not complete the corrective actions, we could not fully address our second
audit follow-up objective, which was to determine whether the Action Official sufficiently
documented the corrective actions and certified them, as required by EPA Manual 2750.

        Corrective Actions Not Completed

        EPA did not complete the eight actions it planned to take in response to our 2006 report.
        As of March 31, 2008, EPA was 16 months past the milestone dates of October/
        November 2006 and 20 months past the management decision date of July 31, 2006,
        without completing the actions. Appendix B provides the status of corrective actions.

        While EPA significantly decreased the undistributed historical “WQ” costs for
        cooperative agreements and small purchases, “WQ” costs increased for interagency
        agreements. “WQ” costs for interagency agreements increased from May 12, 2006,1 to
        December 31, 2007, by a net $1,081,507, to $4,866,735. The total includes a remaining
        amount of $2,993,960 that we reported on previously and additional costs charged to
        “WQ” of $1,872,775 since May 12, 2006. Table 1 illustrates the undistributed “WQ”
        costs by funding vehicle at May 12, 2006, and December 31, 2007, and the amount of
        increase or decrease.



1
  We reported the May 12, 2006, undistributed “WQ” costs in the prior audit report based on EPA’s updated data
reports. We did not audit this data.


                                                        4
                                                                                           08-P-0236


Table 1: Undistributed “WQ” Costs
                                                                              (Decrease) / Increase
                                           Undistributed “WQ”                       in “WQ”
                                     May 12, 2006       December 31,             May 12, 2006 to
        Funding Vehicle              (Unaudited)            2007               December 31, 2007
   Cooperative Agreements                $7,417,231            $337,502                 $(7,079,729)
   Interagency Agreements                 3,785,228            4,866,735                  1,081,507
   Small Purchases                        1,737,599             707,723                  (1,029,876)
   Totals                               $12,940,058          $5,911,960                 $(7,028,098)

Source: OIG analysis of EPA data obtained from the Financial Data Warehouse

A disagreement between OSWER and OCFO over the sufficiency of data submitted
delayed the redistribution of the majority of interagency agreement “WQ” costs. By not
resolving the dispute or elevating the issue to higher levels, corrective actions to decrease
the balance of interagency agreement “WQ” costs were not completed.

Although EPA made significant progress on the corrective action to redistribute the
historical “WQ” costs, the other corrective actions are incomplete. These actions are
necessary to support timely “WQ” cost redistributions in the future. The incomplete
actions include preparing written procedures, evaluating the need for training, revising
cooperative agreement conditions and the closeout process, and promoting accountability
among project officers and finance office personnel.

Management control weaknesses in audit follow-up contributed to the delay in the
corrective actions. EPA did not comply with several internal control procedures designed
for the audit follow-up process. EPA did not:

       ● Document formal work assignments for audit follow-up and maintain
         accountability. The MATS files had no record of individual assignments for
         audit follow-up.

       ● Monitor audit follow-up activities consistently, communicate follow-up status
         among program offices, and obtain follow-up agreements on corrective actions
         needed and the assignment of responsibility for the actions.

       ● Document the completion of work for corrective actions. The MATS files
         contained some e-mails regarding the redistribution of “WQ” costs, efforts on
         preparing written procedures, and training. However, the files did not have
         documentation to readily indicate the status of the corrective actions.

       ● Elevate an issue affecting the “WQ” redistributions for interagency
         agreements to a higher level of authority for resolution. OCFO and OSWER
         personnel were unable to resolve an issue about the allocation of Superfund
         costs to the proper sites and redistribute $3.3 million “WQ” costs.
         Correspondence shows the issue has existed since 2002.




                                             5
                                                                                        08-P-0236


              ● Ensure corrective actions were implemented. For example, OCFO did not
                monitor the Cincinnati Finance Center’s redistribution efforts and ensure that
                the historical “WQ” costs were redistributed.

       When OIG inquired about the status of audit follow-up, EPA initiated an effort on
       January 31, 2008, to ascertain the current status. EPA provided an updated status on
       March 7, 2008, which proposed a new milestone completion date of September 30, 2008,
       for all the corrective actions.

       Incorrect Information in MATS

       The status of a corrective action recorded in OCFO’s MATS tracking system was not
       accurate. OCFO labeled the corrective action to redistribute the historical “WQ” costs as
       complete. However, the action was only partially complete. EPA had redistributed the
       historical “WQ” costs for cooperative agreements and small purchases, but not for
       interagency agreements. OCFO marked the action “complete” based solely on
       information about the cooperative agreement redistributions. OCFO did not have
       information at the time on the status of small purchases and interagency agreement
       redistributions. Therefore, OCFO did not comply with its control procedures for the
       Action Official to ensure that corrective actions are documented, tracked, and
       implemented, and for the Audit Follow-up Coordinator to ensure that responses to OIG
       reports are complete and timely. Accurate information is necessary for MATS to serve as
       a useful management tool.

       Costs Redistributed to Incorrect Site Identifier

       EPA redistributed some historical costs to an incorrect site identifier. Region 5 finance
       personnel redistributed $5.4 million of cooperative agreement "WQ" costs on May 8,
       2006, based on an assistance adjustment notice. The redistribution helped reduce the
       undistributed "WQ" costs reported as of May 12, 2006, in the audit report. Region 5
       recorded the costs to the “ZZ” site identifier used for preliminary site assessment, which
       precluded cost recovery. However, the site cost detail subsequently received on
       October 4, 2006, revealed $1.3 million site-specific costs and $1.5 million indirect costs.
       Region 5 should have redistributed the $2.8 million costs in October 2006 to specific site
       identifiers and the “00” identifier for indirect costs to make the costs available for
       potential cost recovery. EPA Comptroller Policy Announcement 93-02 requires that all
       financial transactions recorded in the accounting system be supported by adequate source
       documentation. EPA did not comply with this control procedure when it recorded the
       redistribution without adequate support.

Conclusion
EPA did not complete the corrective actions it planned to take in response to our 2006 report.
Management control weaknesses in the audit follow-up process delayed EPA's actions to
implement OIG recommendations and improve its programs. EPA needs to improve its audit
follow-up process and complete the corrective actions for our 2006 report. Because EPA did not
complete the corrective actions, its financial management and environmental protection efforts


                                                6
                                                                                                       08-P-0236


were impacted, and funds may not be recovered from responsible parties and be available for
future site clean-up activities.

Recommendations
We recommend that the Chief Financial Officer, the Assistant Administrator for Solid Waste and
Emergency Response, and the Assistant Administrator for Administration and Resources
Management take the following actions to complete the corrective actions for our July 2006 audit
recommendations:

        1. Make formal work assignments for corrective actions, document the assignments in
           the MATS files, and hold the individual assignees accountable.

        2. Monitor audit follow-up activity, communicate the audit follow-up status among
           program offices, and document work progress and completion in the MATS files.

        3. Resolve the issue that delayed the redistribution of interagency agreement costs.

        4. Elevate future disagreements among Action Officials regarding corrective actions to
           the Agency Audit Follow-up Official (the Chief Financial Officer) for resolution.

        5. Redistribute the interagency agreement “WQ” costs of $4,866,735, including
           $2,993,960 historical costs and $1,872,775 additional costs recorded from May 12,
           2006, to December 31, 2007.

Further, we recommend that the Chief Financial Officer:

        6. Correct the May 8, 2006, entry to properly redistribute $2.8 million cooperative
           agreement costs to the correct general and site specific identifiers.

Agency Response and OIG Evaluation
EPA agreed with all our audit recommendations and its proposed corrective actions should
address our recommendations.

EPA submitted with its response to the draft report a revised corrective action plan and milestone
dates for our July 2006 report, EPA Could Improve Its Redistribution of Superfund Payments to
Specific Sites. EPA significantly adjusted the action plan by making changes to the corrective
actions and revising the milestone dates from October/November 2006 to July 31, 2008, through
November 30, 2008.2 We believe the revised action plan addresses the recommendations.
Therefore, in accordance with EPA Manual 2750, we approve EPA’s request to change the
corrective action plan.



2
 On August 13, 2008 EPA again revised the corrective action plan to update the July 31, 2008, milestone dates to
August 29, 2008.


                                                        7
                                                                                        08-P-0236


EPA’s complete response to the draft report, including its revised action plan for our July 2006
report, is in Appendix D.




                                                8
                                                                                                                                             08-P-0236



                                  Status of Recommendations and
                                    Potential Monetary Benefits
                                                                                                                                   POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                       Planned
    Rec.    Page                                                                                                      Completion   Claimed    Agreed To
    No.      No.                          Subject                            Status1         Action Official            Date2      Amount      Amount

     1        7     Make formal work assignments for corrective                O          Chief Financial Officer,     08/29/08
                    actions, document the assignments in the MATS                       Assistant Administrator for
                    files, and hold the individual assignees                           Solid Waste and Emergency
                    accountable.                                                             Response, and
                                                                                        Assistant Administrator for
                                                                                            Administration and
                                                                                         Resources Management

     2        7     Monitor audit follow-up activity, communicate the          O          Chief Financial Officer,     08/29/08
                    audit follow-up status among program offices, and                   Assistant Administrator for
                    document work progress and completion in the                       Solid Waste and Emergency
                    MATS files.                                                              Response, and
                                                                                        Assistant Administrator for
                                                                                            Administration and
                                                                                         Resources Management

     3        7     Resolve the issue that delayed the redistribution of       O          Chief Financial Officer,     09/30/08
                    interagency agreement costs.                                        Assistant Administrator for
                                                                                       Solid Waste and Emergency
                                                                                             Response, and
                                                                                        Assistant Administrator for
                                                                                            Administration and
                                                                                         Resources Management

     4        7     Elevate future disagreements among Action                  C          Chief Financial Officer,     08/4/08
                    Officials regarding corrective actions to the Agency                Assistant Administrator for
                    Audit Follow-up Official (the Chief Financial Officer)             Solid Waste and Emergency
                    for resolution.                                                          Response, and
                                                                                        Assistant Administrator for
                                                                                            Administration and
                                                                                         Resources Management

     5        7     Redistribute the interagency agreement “WQ” costs          O          Chief Financial Officer,     11/30/08     $1,873      $1,873
                    of $4,866,735, including $2,993,960 historical costs                Assistant Administrator for
                    and $1,872,775 additional costs recorded from                      Solid Waste and Emergency
                    May 12, 2006, to December 31, 2007.                                      Response, and
                                                                                        Assistant Administrator for
                                                                                            Administration and
                                                                                         Resources Management

     6        7     Correct the May 8, 2006, entry to properly                 O          Chief Financial Officer      08/31/08     $2,800      $2,800
                    redistribute $2.8 million cooperative agreement
                    costs to the correct general and site specific
                    identifiers.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                   9
                                                                                         08-P-0236


                                                                                Appendix A

                   Audit Management Responsibilities
          Title                                          Duties
      Agency Audit        •   Ensures Agency-wide audit resolution and that systems for audit
    Follow-up Official        follow-up are in place
                          •   Ensures corrective actions are actually implemented
                          •   Designates an Agency Audit Follow-up Coordinator
      Agency Audit        •   Maintains and conducts quality assurance and analysis of the
 Follow-up Coordinator        Agency audit tracking system and data
                          •   Prepares reports to Congress
     Action Officials     •   Implements the audited program (commonly the regional official
                              or Assistant Administrator to whom the report is addressed)
                          •   Ensures that corrective actions are documented, tracked, and
                              implemented
                          •   Certifies that corrective actions are complete (or designates a
                              certifying official to do so)
   Audit Management       •   Is designated in each regional and national program office
        Officials         •   Develops and maintains office-specific procedures for audit
                              follow-up and resolution
                          •   Designates office-specific Audit Follow-up Coordinators
                          •   Ensures managers and staff within their office understand the
                              audit management process and take timely and appropriate
                              corrective actions
    Audit Follow-up       •   Serves as a contact point for OIG
     Coordinators         •   Provides guidance and ensures that responses to OIG reports
                              are complete and timely
                          •   Maintains official files containing the record of management
                              decisions and certifications of completed corrective actions
                          •   Provides status reports to the Agency Audit Follow-up
                              Coordinator on corrective actions and audit resolution, and tracks
                              reasons for delay
Source: EPA Manual 2750




                                             10
                                                                                                      08-P-0236


                                                                                                  Appendix B

                          Status of Corrective Actions3
                                                        Agreed
                                                         Upon
                                                       Milestone
               Corrective Action                         Date                            Status
1-1. For all funding vehicles, OCFO will draft           October       Not complete. The policies are not
    appropriate “WQ” accounting policies to               2006         yet written into the Resources
    enhance Comptroller Policy                                         Management Directive System
    Announcement 96-01.                                                (RMDS). OCFO projects it will
                                                                       complete the corrective action by
                                                                       September 30, 2008.
1-2. OCFO will incorporate “WQ” redistribution           October       Not complete. The policies are not
    procedures into Chapter 4 "Direct Site                2006         yet written into the RMDS. OCFO
    Charging" in RMDS 2550D, Financial                                 projects it will complete the corrective
    Management of the Superfund Program,                               action by September 30, 2008.
    which is in the process of being updated by
    OCFO/Office of Financial Management.
1-3. OCFO/Office of Financial Services will              October       Not complete. Research Triangle
    develop standard operating procedures for             2006         Park Finance Center established
    simplified acquisitions similar to Superfund                       procedures for simplified acquisitions,
    contracts for the processing of payments.                          but EPA has not completed the written
                                                                       procedures for them.
2-1. OSWER and OARM, in cooperation with               November        Partially complete. Research
    OCFO/Office of Financial Management,                 2006          Triangle Park Finance Center provided
    will evaluate the need for training on “WQ”                        some "WQ" training for project officers
    redistribution procedures for each type of                         and contract officers at the annual
    funding vehicle. OCFO/Office of Financial                          Superfund Project Officer Contracting
    Management has provided OARM with                                  Officer Conference. OCFO needs to
    project officer training materials for                             provide project officer training
    interagency agreements to include in its                           materials, and OSWER and OARM will
    on-line officer training course.                                   provide training in future classes.
3-1. OCFO, OARM, and OSWER have                         Ongoing        Partially complete. EPA has
    prioritized this issue in order for the                            redistributed grants/cooperative
    balances to come in line with current “WQ”                         agreements and small purchases, but
    payments only and is working with States                           not interagency agreements.
    and other Agencies to ensure compliance.
    OCFO will work with the regions to
    redistribute the historical costs remaining in
    the “WQ” site identifier.



3
 Appendix B reflects the audited Status of Corrective Actions as of February 25, 2008, the last day of audit field
work. Subsequently, on March 7, 2008, EPA submitted an updated corrective action plan with a proposed milestone
completion date of September 30, 2008, for all corrective actions. Appendix D has EPA’s revised corrective action
plan and milestone dates that it submitted on July 16, 2008. On August 13, 2008, EPA again revised the corrective
action plan to update the July 31, 2008, milestone dates to August 29, 2008.


                                                       11
                                                                                               08-P-0236


                                                      Agreed
                                                       Upon
                                                     Milestone
               Corrective Action                       Date                       Status
4-1. OCFO and OSWER are currently working             October    Not complete. Las Vegas Finance
    together to agree on the time frame to             2006      Center established requirements for its
    provide site specific cost details within one                grant/cooperative agreement recipients
    business day of the payment draw down.                       to provide site specific cost details in
    This will include providing the award                        one business day. However, EPA has
    officials with appropriate programmatic                      not completed written procedures and
    terms and conditions to be included in                       has not updated terms and conditions
    future grants. OCFO has updated the                          of assistance agreements.
    cooperative agreement “WQ” site
    distribution policy which is being included in
    a draft of RMDS 2550D, Chapter 9, on
    cooperative agreements and has updated
    the chapter to address the OIG's
    recommendation.
5-1. OCFO, OARM, and OSWER will                       October    Not complete. The policies are not
    coordinate changes in closeout procedures          2006      yet written into the RMDS. OCFO
    to ensure and verify that “WQ” costs are                     projects it will complete the corrective
    redistributed. OCFO and OSWER are in                         action by September 30, 2008.
    the process of amending the latest draft of
    RMDS 2550D, Chapter 9, to include
    language that would require all “WQ”
    payments to be redistributed at the time of
    grants closeout.
6-1. OCFO, OARM, and OSWER will issue                November    Not complete. The policies are not
    guidance that assigns specific                     2006      yet written into the RMDS. OCFO
    responsibilities to ensure that “WQ” costs         and       projects it will complete the corrective
    are redistributed in a timely manner.             Ongoing    action by September 30, 2008.
    OCFO, OARM, and OSWER will promote
    such accountability through the update and
    revision of relevant policies and the
    evaluation of training needs on an ongoing
    basis. OCFO/Office of Financial Services
    will continue to monitor “WQ” payment
    balances for all funding vehicles on at least
    a quarterly basis to ensure that appropriate
    project officers and grantees are held
    accountable.
Source: OIG analysis of EPA data




                                                     12
                                                                                         08-P-0236


                                                                                    Appendix C

                        Details on Scope and Methodology
We reviewed the status of EPA’s corrective actions taken in response to the OIG Report
No. 2006-P-00027, EPA Could Improve Its Redistribution of Superfund Payments to Specific
Sites, issued July 31, 2006. To determine the status of corrective actions, we interviewed
Agency personnel in OCFO, OSWER, and OARM; reviewed audit follow-up information in the
MATS database and MATS files; and obtained data reports of undistributed “WQ” costs for
cooperative agreements, interagency agreements, and small purchases.

We tested a sample of redistributed “WQ” payments recorded from March 30, 2006, to
December 31, 2007, to determine whether EPA charged the appropriate site identifiers and had
proper supporting documentation for the redistributions. We used the monetary unit method of
statistical sampling to select from all Servicing Finance Office locations a sample of cooperative
agreements, interagency agreements, and small purchases.

We assessed the internal controls relevant to our objectives. We gained an understanding of the
internal controls by reviewing OMB and EPA audit follow-up guidance and interviewing
personnel at Headquarters, regional offices, program offices, and finance centers. We did not
review the internal controls over EPA’s Financial Data Warehouse from which we obtained data
reports, but relied on the OIG’s review performed during the audit of EPA’s Fiscal Year 2007
financial statements.

Since EPA did not complete the corrective actions, we could not fully address our second audit
follow-up objective to determine whether the Action Official sufficiently documented the
corrective actions and certified them, as required by EPA Manual 2750.

We also reviewed two prior OIG evaluation reports on audit follow-up (see Table 2). These
reports covered EPA’s audit follow-up processes in the Office of Water, Office of Enforcement
and Compliance Assurance, and Office of Air and Radiation.

Table 2: Prior Audit Coverage
                        Report Title                        Report No.               Date
 EPA’s Office of Air and Radiation Needs to Improve         08-P-0080         February 12, 2008
 Compliance with Audit Follow-up Process

 EPA Can Improve Its Oversight of Audit Follow-up         2007-P-00025           May 24, 2007
Source: OIG evaluation reports




                                                    13
                                                                                       08-P-0236


                                                                                   Appendix D

                         EPA Response to Draft Report
                                         July 16, 2008



MEMORANDUM


SUBJECT:      Draft Audit Report: Follow-up on Audit of Undistributed Site Costs Finds
              Corrective Actions Not Complete, Assignment No. 2008-0040

FROM:         Lorna M. McAllister, Director
              Office of Financial Management

              Milton Brown, Director
              Office of Financial Services

              Krista Mainess, Director
              Office of Program Management

              James E. Woolford, Director
              Office of Superfund Remediation and Technology Innovation

              Howard Corcoran, Director
              Office of Grants and Debarment

TO:           Melissa Heist, Assistant Inspector General for Audit
              Office of Inspector General


       This is in response to the May 14, 2008 memorandum on the draft audit report “Follow-
up on Audit of Undistributed Site Costs Finds Corrective Actions Not Complete, No 2008-0040.”
We concur with all audit recommendations except for recommendation number 4. Attached are
our consolidated corrective action plans with milestones including the corrective actions and
milestones for the original 2006 report, “EPA Could Improve Its Redistribution of Superfund
Payments to Specific Sites, No. 2006-P-00027”.

        With regard to recommendation No. 4, the disagreement cited by the OIG remained at a
level below the Action Officials and was resolved by lower level management between the two
offices. Therefore, we do not believe there is a need to elevate this disagreement to the Agency
Audit Follow-up Official.




                                               14
                                                                                       08-P-0236


       If you or your staff have any questions or need additional information concerning this
response, contact Iantha Y. Gilmore at 202-564-7654.

Attachment

cc:    Lyons Gray
       Maryann B. Froehlich
       Melissa Heist
       Joshua Baylson
       Susan Dax
       Raffael Stein
       James Wood
       Paul Curtis
       Bill Samuel




                                               15
                                                                                       08-P-0236




                                         August 4, 2008

MEMORANDUM

SUBJECT:       Amendment: July 16th Response to Draft Audit Report: Follow-Up Audit of
               Undistributed Site Costs Funds Corrective Actions Not Complete, Assignment No.
               2008-0040.

FROM:          Lorna M. McAllister, Director /s/
               Office of Financial Management

               Howard Corcoran, Director
               Office of Grants and Debarment

TO:            Melissa Heist, Assistant Inspector General for Audit
               Office of Inspector General

        As you know, your office conducted an exit conference to provide feedback on the July
  th
16 written response to the Draft Audit Report: Follow-Up Audit Undistributed Site Costs
Funds Corrective Actions Not Complete, Assignment No. 2008-0040. Based on this feedback,
the original response to Recommendation #4 which states: Elevate future disagreements among
Action Officials regarding corrective actions to the Agency Audit Follow-up Officials (the Chief
Financial Office) for resolution] will be revised to state the following:

        “The Agency agrees to elevate future staff disagreements between offices
        to upper level management for resolution.”

        If you have any questions, please have your staff contact Iantha Y. Gilmore on 202-564-
7654.




                                                16
                                                                                        08-P-0236



                                                                                 ATTACHMENT

                                    Background Information
Name of Report:    Audit Report: Follow-up on Audit of Undistributed Site Costs Finds Corrective
                   Actions Not Complete.
Report Number
                   2008-0040, May 14, 2008
and Date:
                                        Title of Finding
        Followup on Audit of Undistributed Site Costs Finds Corrective Actions Not Complete
                             Recommendations & OCFO Corrective Actions
        Recommendation:      Make formal work assignments for corrective actions, document the
                             assignments in the MATS files, and hold the individual assignees
                             accountable.
                             Krista Mainess (OPM)                           Barbara Freggens (OPM)
        Office Director:     Lora Culver (OMIS)        POC Manager:         Johnsie Webster (OMIS)
                             Howard Corcoran (OGD)                          Bernie Davis-Ray (OARM)
    1
        a. Summary of        OARM/OGD, OCFO/OPM and OSWER/OMIS - Each Audit Follow-up
        Corrective Action:   Coordinator (Coordinator at each Program Office’s Immediate Office
                             level) will update MATS with a revised corrective action plan. The
                             revised action plan will identify each Office’s responsible Action Officer
                             and will include updated plan actions, and new milestone dates.
        b. Target Completion Date: July 31, 20082 c. Actual Date Completed:
                           Recommendations & OCFO Corrective Actions
        Recommendation: Monitor audit followup activity, communicate the audit followup status
                             among program offices, and document work progress and completion in
                             the MATS files.
                             Krista Mainess (OPM)                      Barbara Freggens (OPM)
                                                       POC
        Office Director:     Lora Culver (OMIS)                        Johnsie Webster (OMIS)
                                                       Manager:
                             Howard Corcoran (OGD)                     Bernie Davis-Ray (OARM)
    2
        a. Summary of        OARM/OGD, OCFO/OPM and OSWER/OMIS – Each Audit Follow-up
        Corrective Action:   Coordinator will request a monthly progress report from each responsible
                             project officer and will hold quarterly meetings to assure successful
                             completion of the audit recommendations and will ensure that MATS is
                             updated quarterly.
        b. Target Completion Date: July 31, 20082   c. Actual Date Completed:
                           Recommendations & OCFO Corrective Actions
        Recommendation: Resolve the issue that delayed the redistribution of interagency
                             agreement costs.
                                                           POC
        Office Director:     James E. Woolford (OSRTI)                     Barbara McDonough (OSRTI)
                                                           Manager:
        a. Summary of        OSRTI will complete development of internal procedures for performing
    3   Corrective Action:   site redistribution for its Project Officers. The procedures will include
                             processes to ensure that its Project Officers know and communicate
                             appropriate information to the appropriate Finance Center to enable the
                             redistribution of WQ costs in a timely manner.
        b. Target Completion Date:   September 30, 2008    c. Actual Date Completed:



                                                17
                                                                                     08-P-0236


                       Recommendations & OCFO Corrective Actions
    Recommendation:    Redistribute the interagency agreement “WQ” costs of $4,866,735,
                       including $2,993,960 historical costs and $1,872,775 additional costs
                       recorded from May 12, 2006, to December 31, 2007.
                       Milton Brown (OFS)
                                                                    Melvin Visnick (OFS)
    Office Director:   James E. Woolford           POC Manager:
                                                                    Barbara McDonough (OSRTI)
                       (OSRTI)
    a. Summary of       OSRTI will provide data for its outstanding interagency agreement WQ
5   Corrective          disbursements through Budget Fiscal Year 2007 or documentation of
    Action:             reasons for outstanding unredistributed disbursements to OCFO/CFC no
                        later than September 8, 2008.

                        OCFO/CFC will enter redistributions from information received from
                        OSRTI and other appropriate offices into IFMS by November 30, 2008.
    b. Target Completion Date:   November 30, 2008    c. Actual Date Completed:
                    Recommendations & OCFO Corrective Actions
    Recommendation: Correct the May 8, 2006, entry to properly redistribute $2.8 million
                      cooperative agreement costs to the correct general and site specific
                      identifiers.
                                                  POC
    Office Director: Milton Brown (OFS)                            Melvin Visnick (OFS)
6                                                 Manager:
    a. Summary of Las Vegas Finance Center (LVFC) is working with Region 5 staff to
    Corrective        correctly redistribute the costs to the correct site identifiers. Corrections
    Action:           will be completed.
    b. Target Completion Date:   August 31, 2008      c. Actual Date Completed:




                                           18
                                                                                      08-P-0236


                                                                               ATTACHMENT

        (Note: Original response is in GREEN. Agency’s updated response is in RED)

                                    Background Information
Name of Report:    Audit Report: EPA Could Improve Its Redistribution of Superfund Payments to
                   Specific Sites
Report Number
                   2006-P-00027, July 31, 2006
and Date:
                                         Title of Finding
EPA Could Improve Its Redistribution of Superfund Payments to Specific Sites
                        Recommendations & OCFO Corrective Actions
       Recommendation: As agreed, develop written procedures for implementing EPA’s
                            Superfund site specific accounting policies related to the general site
                            identifier WQ, including a timeliness standard for redistributions for
                            each funding vehicle, an explanation of project officers’
                            responsibilities, monitoring procedures, and WQ cost reviews at the
                            time of closeout. Develop a standard format for project officers of
                            interagency agreements to transmit cost redistribution information to
                            the Cincinnati Finance Center.
                            Lorna McAllister (OFM) POC                 Iantha Gilmore (OFM)
       Office Director:
                            Milton Brown (OFS)           Manager:      Mel Visnick (OFS)
       a. Summary of        For all funding vehicles, OCFO/OFM will or has begun drafting
       Corrective Action: appropriate WQ accounting policies to enhance the Comptroller Policy
                            Announcement 96-01. WQ redistribution procedures will be
                            incorporated into Chapter 4 “Direct Site Charging” of the RMDS
                            2550D, also known as “Financial Management of the Superfund
                            Program,” which is in the process of being updated by OCFO/OFM.

                             Change: For all funding vehicles, OCFO/OFM is drafting an update to
                             appropriate WQ accounting policies to include WQ redistribution
                             procedures. Under OCFO’s new numbering scheme for all for
                             Superfund policies, Chapter 4 is now Chapter 2 of RMDS 2550D,
                             “Direct Site Charging” also known as “Financial Management of the
                             Superfund Program.”

                             New Target Date: July 31, 20082

                             OCFO/OFS is also developing standard operating procedures for
                             simplified acquisitions similar to Superfund contracts for the processing
                             of payments.
                             OCFO/OFS will provide this information for inclusion into the draft
                             policy referenced above.

                            New Target Date: July 31, 20082
        b. Target Completion Date:  October 2006       c. Actual Date Completed:


                                              19
                                                                                   08-P-0236


                     Recommendations & OCFO Corrective Actions
    Recommendation: Evaluate the need for training on WQ redistribution procedures for each
                         type of funding vehicle and provide the appropriate level of training to
                         the responsible personnel.
                         James E. Woolford                         Barbara McDonough
                         (OSRTI)                     POC           (OSRTI)
    Office Director:
                         Howard Corcoran (OGD) Managers: Jeanne Conklin (OGD)
                         Lorna McAllister (OFM)                    Iantha Gilmore (OFM)
    a. Summary of        OSWER/OSRTI and OARM/OGD, in cooperation with OCFO/OFM,
    Corrective Action: will evaluate the need for training on WQ redistribution procedures for
                         each type of funding vehicle.
2
                         OCFO/OFM has provided OARM/OGD with project officer training
                         materials for IAGs to include in its on-line officer training course.

                         Change: OSWER/OSRTI and OARM/OGD will evaluate training
                         needs for their staffs. OCFO/OFM will assist OSWER and OARM on
                         an as requested basis.

                         New Target Date: August 27, 2008
    b. Target Completion Date: November 2006 c. Actual Date Completed:
                     Recommendations & OCFO Corrective Actions
    Recommendation: Continue working with the regions to redistribute the historical costs
3
                         remaining in the WQ site identifier.
                         Milton Brown (OFS)                          Melvin Visnick (OFS)
                         Howard Corcoran (OGD) POC                   Jeanne Conklin (OGD)
    Office Director:
                         James E. Woolford            Manager:       Barbara McDonough
                         (OSRTI)                                     (OSRTI)
    a. Summary of        EPA has prioritized this issue in order for the balances to come in line
    Corrective Action: with current WQ payments only and is working with States and other
                         Agencies to ensure compliance. For instance, Region III has a small
                         backlog that they plan to eliminate. Region V is working to eliminate
                         the backlog before the Cooperative Agreement processing migrates to
                         OFS/LV this winter and has already redistributed $9.6 million. Region
                         V is also committed to redistributing the balance of $7.3 million by
                         December 2006, having obtained the cooperation of its recipients to
                         provide the necessary site-specific cost detail. OCFO/OFS has
                         aggressively worked to redistribute simplified acquisition backlog and
                         has provided the regions with reports for their use in eliminating their
                         own backlog. The Las Vegas Finance Center, in coordination with the
                         regions and grant recipients, has already redistributed to the correct
                         sites all outstanding cooperative agreement WQ balances for the
                         regions it services.

                         Change: With the consolidation of all Agency grant payment services
                         to the Las Vegas Finance Center, LVFC received additional grants that


                                          20
                                                                                    08-P-0236


                          lacked site specific cost detail. LVFC completed their research and
                          eliminated the backlog of grants on 9/6/07.

                          OCFO/OFS has assisted the Regions in distributing WQ costs. The
                          Cincinnati Finance Center continues to work with OSRTI and the
                          Regional Offices to obtain the data required to complete redistribution.
                          Any current balance in WQ for contracts and small purchases under
                          RTP’s control represents ongoing payments (not part of the backlog)
                          and are quickly redistributed.

                         New Target Date: November 30, 2008
    b. Target Completion Date: June 30, 2006           c. Actual Date Completed:
                     Recommendations & OCFO Corrective Actions
    Recommendation: Continue working to change the cooperative agreement conditions to
                         require the recipient to provide site-specific cost details within 24 hours
                         of drawing down funds, and enforce those conditions.
                         Lorna McAllister (OFM)                       Iantha Gilmore (OFM)
                         James E. Woolford             POC            Barbara McDonough
    Office Director:
                         (OSRTI)                       Manager:       (OSRTI)
                         Howard Corcoran (OGD)                        Jeanne Conklin (OGD)
    a. Summary of        OCFO/OFM and OSWER/OSRTI are currently working together to
    Corrective Action: agree on the time frame to provide site specific cost details within one
                         business day of the payment draw down. This will include providing
                         the award officials with appropriate programmatic terms and conditions
                         to be included in future grants.

                          OCFO/OFM has updated the Cooperative Agreement WQ site
                          distribution policy which is being included in a draft of Chapter 9,
                          RMDS on Cooperative Agreements and has updated the chapter to
4                         address the OIG’s recommendation.

                          Change: OCFO, OARM and OSWER are currently working together
                          to provide the award officials with the appropriate National
                          programmatic term and condition to be included in future grants.
                          OARM/OGD and OSWER/OSRTI will provide this information to
                          OCFO/OFM for incorporation into the draft policy referenced in
                          Recommendation No. 1.

                          New Target Date: July 31, 20082

                          OCFO/OFM will provide updates to the Cooperative Agreement WQ
                          site distribution policy which is being included in the draft policy
                          update referenced in Recommendation No. 1.

                        New Target Date: July 31, 20082
    b. Target Completion Date: October 2006        c. Actual Date Completed:


                                           21
                                                                                    08-P-0236




                     Recommendations & OCFO Corrective Actions
    Recommendation: Amend the closeout process for cooperative agreements to include
                         procedures to verify that WQ costs are redistributed.
                         Milton Brown (OFS)
                         Howard Corcoran                           Mel Visnick (OFS)
                         (OGD)                                     Jeanne Conklin (OGD)
                                                   POC
    Office Director:     James E. Woolford                         Barbara McDonough
                                                   Manager:
                         (OSRTI)                                   (OSRTI)
                         Lorna McAllister                          Iantha Gilmore (OFM)
                         (OFM)
    a. Summary of        OCFO/OFS, OARM/OGD, and OSWER/OSRTI will coordinate
    Corrective Action: changes in closeout procedures to ensure and verify that WQ costs are
                         redistributed.
5
                         OCFO/OFM and OSWER/OSRTI are in the process of amending the
                         latest draft of 2550D Chapter 9 to include language that would require
                         all WQ payments to be redistributed at the time of Grants closeout.

                         Change: OSWER/OSRTI will provide updates to the OCFO/OFM draft
                         policy update referenced in Recommendation No. 1 to include a
                         requirement that all WQ payments to be redistributed at the time of
                         Grants closeout. At present RMDS 2550D Chapter 9 (now Chapter 4
                         under the new numbering scheme) does not address WQ and is not
                         being updated at this time.

                         New Target Date: July 31, 20082
    b. Target Completion Date: October 2006            c. Actual Date Completed:
                     Recommendations & OCFO Corrective Actions
    Recommendation: Promote accountability for WQ redistributions among project officers
6
                         and finance office personnel.
                         Lorna McAllister (OFM)                     Iantha Gilmore (OFM)
                         Howard Corcoran (OGD)                      Jeanne Conklin (OGD)
                                                      POC
    Office Director:     James E. Woolford                          Barbara McDonough
                                                      Manager:
                         (OSRTI)                                    (OSRTI)
                         Milton Brown (OFS)                         Melvin Visnick (OFS)
    a. Summary of        OCFO/OFM, OARM/OGD, and OSWER/OSRTI will issue guidance
    Corrective Action: that assigns specific responsibilities to ensure that WQ costs are
                         redistributed in a timely manner. As discussed above, OCFO/OFM,
                         OARM/OGD, and OSWER/OSRTI will promote such accountability
                         through the update and revision of relevant policies and the evaluation
                         of training needs on an ongoing basis.

                         OCFO/OFS will continue to monitor WQ payment balances for all
                         funding vehicles on at least a quarterly basis to ensure that appropriate
                         project officers and grantees are held accountable.


                                          22
                                                                              08-P-0236




                  Change: OCFO/OFM draft policy referenced in Recommendation 1
                  will clarify roles and responsibilities to identify who is responsible for
                  redistributing WQ costs and strengthen the timeframes by which the
                  redistribution is to occur.

                    New Target Date: July 31, 20082
b. Target Completion Date: November 2006 c. Actual Date Completed:




                                   23
                                                                                 08-P-0236


                                                                             Appendix E

                                      Distribution

Office of the Administrator
Chief Financial Officer
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Office of General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Director, Office of Financial Management
Director, Office of Site Remediation and Technology Innovation
Director, Office of Grants and Debarment
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Administration and Resources Management
Deputy Inspector General




                                            24
